<html>
<title> - [H.A.S.C. No. 115-1]ORGANIZATIONAL MEETING FOR THE 115TH CONGRESS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                               
                         [H.A.S.C. No. 115-1]
 
             ORGANIZATIONAL MEETING FOR THE 115TH CONGRESS

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MEETING HELD

                            JANUARY 12, 2017


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                              ____________
                              
                              
                    U.S. GOVERNMENT PUBLISHING OFFICE
24-296                         WASHINGTON : 2017                    
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ddbaadb29dbea8aea9b5b8b1adf3beb2b0f3">[email&#160;protected]</a>  


                                    
                      COMMITTEE ON ARMED SERVICES
                     One Hundred Fifteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
JOE WILSON, South Carolina           ROBERT A. BRADY, Pennsylvania
FRANK A. LoBIONDO, New Jersey        SUSAN A. DAVIS, California
ROB BISHOP, Utah                     JAMES R. LANGEVIN, Rhode Island
MICHAEL R. TURNER, Ohio              RICK LARSEN, Washington
MIKE ROGERS, Alabama                 JIM COOPER, Tennessee
TRENT FRANKS, Arizona                MADELEINE Z. BORDALLO, Guam
BILL SHUSTER, Pennsylvania           JOE COURTNEY, Connecticut
K. MICHAEL CONAWAY, Texas            NIKI TSONGAS, Massachusetts
DOUG LAMBORN, Colorado               JOHN GARAMENDI, California
ROBERT J. WITTMAN, Virginia          JACKIE SPEIER, California
DUNCAN HUNTER, California            MARC A. VEASEY, Texas
MIKE COFFMAN, Colorado               TULSI GABBARD, Hawaii
VICKY HARTZLER, Missouri             BETO O'ROURKE, Texas
AUSTIN SCOTT, Georgia                DONALD NORCROSS, New Jersey
MO BROOKS, Alabama                   RUBEN GALLEGO, Arizona
PAUL COOK, California                SETH MOULTON, Massachusetts
JIM BRIDENSTINE, Oklahoma            COLLEEN HANABUSA, Hawaii
BRAD R. WENSTRUP, Ohio               CAROL SHEA-PORTER, New Hampshire
BRADLEY BYRNE, Alabama               JACKY ROSEN, Nevada
SAM GRAVES, Missouri                 A. DONALD McEACHIN, Virginia
ELISE M. STEFANIK, New York          SALUD O. CARBAJAL, California
MARTHA McSALLY, Arizona              ANTHONY G. BROWN, Maryland
STEPHEN KNIGHT, California           STEPHANIE N. MURPHY, Florida
STEVE RUSSELL, Oklahoma              RO KHANNA, California
SCOTT DesJARLAIS, Tennessee          SCOTT H. PETERS, California
RALPH LEE ABRAHAM, Louisiana         PETE AGUILAR, California
TRENT KELLY, Mississippi             JOAQUIN CASTRO, Texas
MIKE GALLAGHER, Wisconsin
MATT GAETZ, Florida
DON BACON, Nebraska
JIM BANKS, Indiana
LIZ CHENEY, Wyoming

                  Robert L. Simmons II, Staff Director
             Zach Steacy, Director, Legislative Operations
             ORGANIZATIONAL MEETING FOR THE 115TH CONGRESS

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                        Washington, DC, Thursday, January 12, 2017.
    
    The committee met, pursuant to call, at 2:08 p.m., in room 
2118, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order. Today, we 
have at this portion three items of official business to 
consider: adoption of the rules, the security procedures, and 
the appointment of committee staff.
    Before we do that, let me just take a brief moment and 
welcome returning and new members to the committee and also 
express some condolences to those members who are here with us 
for a day and are being forced to leave us after this.
    The truth is this is a special committee. Most people 
believe that it is the President or the military's job to 
decide how big the military ought to be and what weapons they 
ought to have and so forth. If you look at Article 1, Section 
8, it says it is Congress' responsibility to raise and support 
armies, to provide and maintain a navy, to make rules for the 
government and regulation of the land and naval forces of the 
United States. That puts the responsibility on our shoulders, 
and it is a significant responsibility because, as we all know, 
men and women volunteer to serve our Nation and defend us and 
put their lives at stake, but they are counting on us.
    The rest of the story is, for 55 straight years, 
Congresses, with majorities from both parties, and Presidents 
of both parties have found a way to come together and pass a 
national defense authorization bill, 55 straight years.
    Now, there have been some hiccups along the way. It hadn't 
always been easy, but that bipartisan tradition of coming 
together for the men and women who serve for the security of 
our Nation is also something, I think, that weighs on us and 
our responsibilities.
    This year, we have got to exercise those responsibilities 
in a world that is growing more dangerous and more complex. We 
are going to work hard. We are going to have lots of sessions 
of various kinds, but I am very excited about the tremendous 
breadth and depth of talent on both sides of the aisle that 
this committee has. And I very much look forward to working 
with each of you and the contributions that each of you will 
make to our product this year.
    Let me yield to the distinguished ranking member for any 
comments he makes before we move on to the rules.

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman.
    I would merely echo your comments. I think you described 
the job of this committee very well. It is a great committee. I 
have been privileged to serve on it for 20 years under a number 
of different chairs in both parties. I think the fact that we 
work together in a bipartisan way to produce a very important 
product every year makes this committee, frankly, unique in the 
House at this point.
    And I have enjoyed working with you, respect the way you 
run the committee, and I look forward to an interesting year. 
We have a lot to do, to be sure. But as you said, we have very, 
very talented members of this committee. And I guess the only 
thing I would add, which I know you have said many times as 
well, we also have an incredibly talented staff that does an 
enormous amount of work and makes this possible. So I thank 
them as well and look forward to working with all of you in the 
year ahead.
    I yield back.
    The Chairman. I thank the gentleman.
    Let me go ahead and call up Committee Resolution No. 1, 
regarding the committee rules for the 115th Congress. The clerk 
will read the resolution.
    Dr. Bright. Committee Resolution No. 1. Resolved, that the 
Committee on Armed Services, U.S. House of Representatives, 
adopt the committee rules for the 115th Congress, which are 
stated in the copy distributed to each member.
    The Chairman. The proposed committee rules have been 
developed jointly with the ranking member and made available to 
members' offices earlier this week following consultation with 
Mr. Smith.
    I ask unanimous consent the resolution be considered as 
read and the resolution be open to amendment at any point.
    Without objection, it is so ordered.
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Let me just say that the committee rules 
and the security procedures are largely unchanged from the 
114th Congress with one notable exception. In rule IV of the 
committee rules, the Subcommittee on Emerging Threats and 
Capabilities has been given jurisdiction over the Cooperative 
Threat Reduction Program, which was formerly under the 
jurisdiction of the Subcommittee on Strategic Forces. That 
program, when it began, focused on nuclear proliferation. It 
has shifted its focus to chemical and biological weapons in 
counterterrorism. That, obviously, fits better with the 
Subcommittee on Emerging Threats; thus, the rules make that 
change. Otherwise, they are both substantially similar to what 
we had before.
    Is there any further discussion, questions, regarding the 
committee rules?
    Are there any amendments related--for the committee rules?
    If not, the chair recognizes the gentleman from South 
Carolina, Mr. Wilson, for the purposes of offering a motion 
regarding Committee Resolution No. 1, the committee rules.
    Mr. Wilson. Mr. Chairman, I move to adopt Committee 
Resolution No. 1 concerning the committee rules.
    The Chairman. The question occurs on the motion offered by 
the gentleman from South Carolina, Mr. Wilson.
    So many as are in favor, say aye.
    Those opposed, say no.
    In the opinion of the chair, the ayes have it.
    A quorum being present, the motion is adopted. Without 
objection, a motion to reconsider is laid upon the table.
    The next order of business is Committee Resolution No. 2, 
regarding the committee's security procedures for the 115th 
Congress. I call up Committee Resolution No. 2 and ask the 
clerk to read the resolution.
    Dr. Bright. Committee Resolution No. 2. Resolved, that the 
Committee on Armed Services, U.S. House of Representatives, 
adopt the committee's security procedures for the 115th 
Congress, a copy of which has been distributed to each member.
    The Chairman. The security procedures were, again, 
coordinated with the ranking member and made available to 
members' offices on Tuesday, January 10. I ask unanimous 
consent that the resolution be considered as read and open for 
amendment at any point.
    Without objection.
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. As I said, this is basically the same we 
had last year. Is there any further discussion of the security 
procedures?
    Are there any amendments to the security procedures?
    If not, the chair recognizes the gentleman from South 
Carolina, Mr. Wilson, for the purpose of offering a motion.
    Mr. Wilson. Mr. Chairman, I move to adopt Committee 
Resolution No. 2, the security procedures for the 115th 
Congress.
    The Chairman. The question now occurs on the motion of the 
gentleman from South Carolina, Mr. Wilson.
    So many as are in favor, say aye.
    Those opposed, say no.
    In the opinion of the chair, the ayes have it. A quorum 
being present, the motion is adopted. Without objection, the 
motion to reconsider is laid upon the table.
    Finally, I call up Committee Resolution No. 3, appointing 
committee staff for the 115th Congress.
    The clerk will read the resolution.
    Dr. Bright. Committee Resolution No. 3. Resolved, that the 
persons listed on the sheet distributed to the members and such 
other personnel as may be required by the committee within the 
limits and terms authorized under the Rules of the House of 
Representatives are hereby appointed to the staff of the 
Committee on Armed Services, U.S. House of Representatives, for 
the 115th Congress, it being understood that, according to the 
provisions of law, the chairman will fix the basic salary per 
annum.
    The Chairman. As many of you know, our committee is unique 
in that the committee staff is integrated. They are all here to 
provide advice and counsel to each of you, Republican and 
Democratic members alike. And I suggest that you take advantage 
of their talents and expertise. I hate to talk about them 
because most of them are in the room. But as Mr. Smith said, it 
is a pretty outstanding group.
    A copy of the committee staff for the 115th Congress was 
prepared in consultation with the ranking member and made 
available to members' offices on Tuesday, January 10.
    I ask unanimous consent the resolution be considered as 
read.
    Without objection.
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Is there any further discussion about the 
committee staff?
    If not, the chair recognizes the gentleman from South 
Carolina for the purposes of offering a motion.
    Mr. Wilson. Mr. Chairman, I move to adopt Committee 
Resolution No. 3, regarding committee staffing for the 115th 
Congress.
    The Chairman. The question now occurs on the motion of the 
gentleman from South Carolina, Mr. Wilson.
    So many as are in favor, say aye.
    Those opposed, say no.
    In the opinion of the chair, the ayes have it. The ayes 
have it.
    A quorum being present, the motion is adopted, and without 
objection, a motion to reconsider is laid upon the table.
    Without objection, committee staff is authorized to make 
technical and conforming changes to reflect the action of the 
committee in adopting Committee Resolutions 1, 2, and 3.
    And if the ranking member has no further comments at this 
point, the committee stands adjourned for this business 
portion.
    [Whereupon, at 2:18 p.m., the committee was adjourned.]

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
